WAIVER
SUPREME COURT OF THE UNITED STATES
21-45

No.

C

Peter C. Benedith

uyahoga County, Ohio, et al.

V.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

e I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
The MetroHealth System dbaMeiFoHealfh-MidiPal Cerifer (improperly named as Department of Medialie—
Metro Health Medical Center Cleveland OH, Metro Health Medical Center Cleveland OH)

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:
Date:

flag—

1 140.
)
2_V6/

8/11/21

(Type or print) Name

Victoria Lynne Vance

0 Mr.

0 Ms.

0 Mrs.

Firm

Tucker Ellis LLP

Address

f950 Main Avenue, Suite 1100

City & State

Cleveland, Ohio

Phone

216-592-5000

0 Miss

Zip 44113
Email

victoria.vance@tuckerellis.com

A copy of this form must be sent to petitioner's counsel or to petitioner ifpro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
15e1er
- C. Tenedifh
cc:

